                                                             UNITED STATES DEPARTMENT OF COMMERCE
                                                            The Inspector General
                                                            Washington, D.C. 20230




October 22, 2010

The Honorable Earl E. Devaney, Chairman
Recovery Accountability and Transparency Board
1717 Pemlsylvania Avenue, N.W.
Suite 700
Washington, D.C. 20006

                 Re: Department of Commerce Office of Inspector General Approach to
                     Recovery Act Oversight

Dear Chairman Devaney:

Pursuant to your e-mail of October 14,20 I0, this letter outlines the Department of Commerce
Office of Inspector General's approach to oversight under the American Recovery and
Reinvestment Act of2009 (ARRA). Five Commerce Department bureaus received a total of$7.9
billion under the Recovery Act: the National Oceanic and Atmospheric Administration (NOAA),
Economic and Statistics Administration/Bureau of the Census (ESA), Economic Development
Administration (EDA), National Institute of Standards and Technology (NIST), and National
Telecommunications and Information Administration (NTIA).] As one of the ten Inspectors
General appointed to the Recovery Board, and consistent with the O[G's ongoing mission, I am
committed to providing active oversight of Recovery Act spending throughout Department of
Commerce programs, contracts, and grants. Commerce 0[0 received $16 million for this effort,
and to date, O[G has spent $2.3 million of its Recovery Act appropriation. Twenty- three staff
members are currently dedicated to Recovery Act oversight.

We have successfully implemented clear, accurate, and timely reporting of 010 oversight
activity through progress reports and audit and evaluation reports provided to Department
management, Congress, and the public. In addition, as detailed below, [ have testified before
Congress. Our work has been recognized by the Department of Commerce for its high quality.
We have conducted an extensive national training effort for Department employees and current
and potential recipients of ARRA funds and we have hired experts to supplement our own
resources. To date, we have responded to four congressional requests and have issued eight
reports, with six more reports underway.2 Our reporting was prioritized through a risk-based
approach, also summarized below. Our Recovery Act Web site (www.oiu.doc.[!Ov/recoverv)
contains more extensive information.




I See Attachment A for a sUlllmary of Department ofColTImcrcc Recovery Act funding.
2 See Anachment B for a complete list of Lestimony, reports, and letters.
Congressional Testimony
On March 19,2009, I testified before the Subcommittee on Investigations and Oversight, House
Committee on Science and Technology, on accountability and transparency in the science
programs and initiatives that were funded through the Recovery Act. My testimony responded to
the subcommittee's questions regarding science funding that the Depm1ment has received under
the Recovery Act; risks the Department faces in spending its stimulus funds based on our prior
audit and investigation work; and our plarll1ed approach for oversight.

Recognition
We are especially proud of the recognition our Recovery Act work received at the Department of
Commerce. The Broadband team received the Secretary's Silver Medal for effective oversight of
NTIA's $4.7-billion Broadband Technology Opportunities Program (BTOP), resulting in
improved broadband infrastructure deployment across America. The Broadband team carried out
its oversight in a proactive and constructive way and in the process helped the Department and
NTIA build a better program. The members of our Recovery Act Task Force assigned to the
Broadband program demonstrated that it is possible to deliver rigorous oversight while
maintaining constructive relationships with the progrmTI office.

In addition, the team responsible for the Review of Contracts and Grants Workforce Staffing and
Qualifications in Agencies Overseeing Recovery Act Funds, done under the aegis of the Board
and issued in March, won a departmental Bronze Medal for Superior Federal Service for its
work.

Training
We have provided ongoing consultation to the Commerce Recovery Act Steering Committee mld
other working groups where OIG staff serve as advisory members, facilitating open
communication within the Department on Recovery Act activities. Further, since March 2009,
OIG's Recovery Act Task Force and Office of Investigations have conducted more than 100 on­
site and video training sessions and briefings related to the mitigation of fraud, waste, abuse, and
mismanagement of Recovery Act funding. This extensive national effort has reached a combined
audience of over 3,300 Department of Commerce employees involved in procurements, grants,
and progranls, as well as current and potential recipients of Recovery Act grants. The six training
topics developed and delivered by OIG staff address grants and contract management and fraud
prevention. Two others--eonstruction cost estimating and suspension and debarment-were
created and presented by private contractors. In addition to their focus on transparency and
accountability, all briefings emphasize whistleblower protections and encourage reporting to
OIG of concerns about the use of Recovery Act funds.

Federal government employees and the public are invited to view the training slide presentations
provided at http://www.oiu.doc.uovlrecoverv/training.html.

Contract Experts
We have hired experts to supplement OIG staff and provide specialized expertise for workshop
training or review of pre-award, administration, and performance measurement activities for
certain technical programs.



                                                 2
OIG Recovery Act Risk-Based Approach and Process
We have executed a risk-based approach to target 010 activities on higher-risk programs and
Department processes. We completed risk assessments for each Commerce program by
analyzing four areas: strategic program, operations, legal and compliance, and fraud risk. Inputs
to our process included the Recovery Act, Office of Management and Budget guidance, bureau
risk assessment documentation, bureau spending and program plans, and information from 010
external audit, and Department A-I23 processes. These helped OIG determine high- , medium- ,
or low risk-by program and by risk category. We have used this risk assessment as the basis for
our 20 I I Recovery Act audit plan.

Thank you for this opportunity to highlight our Recovery Act oversight.

Sincerely,



1;J)3~
Todd J. Zinser




                                                3
                                               Attachment A:


         DEPARTMENT OF COMMERCE RECOVERY ACT FUNDING


(iI/ thol/sal/ds)

Economic                               $ 150,000 Grants to economically distressed areas to support
Development                                         efforts to create higher-skill, higher-wage jobs by
Administration (EDA)                                promoting innovation and entrepreneurship and
                                                    connecting regional economies with the worldwide
$150,000                                            marketplace
Census Bureau                           1,000,000   Hire new personnel for partnership and outreach
                                                    efforts to minority communities and hard-to-reach
$1,000,000                                          populations, increase targeted media purchases,
                                                    and ensure proper management of other operational
                                                    and proqrammatic risks
National Oceanic and                      230,000   Habitat restoration, navigation projects, vessel
Atmospheric                                         maintenance
Administration (NOAA)                     430,000   Construction and repair of NOAA facilities, ships,
                                                    and equipment; improvements for weather
$830,000                                            forecasting and satellite development
                                          170,000   Climate computinq and modelinq
National Institute of                     220,000   Laboratory research supporting economic growth
Standards and                                       and innovation through competitive grants, research
Technology (NIST)                                   fellowships, and advance measurement eauipment
                                          360,000   Maintenance and renovation backloq
$610,000                                   30,000   Funds from the Department of Health and Human
                                                    Services for standards-related research on medical
                                                    records; from the Department of Energy to develop a
                                                    framework for an interoperable smart grid for the
                                                    U.S. electric power svstem
National                                3,890,000   Broadband Technology Opportunities Program-
Telecommunications                                  awards to eligible entities to develop and expand
and Information                                     broadband services to rural and underserved areas
Administration (NTIA)                               and improve access to broadband by public safety
                                                    agencies
$4,690,000 Broadband'                     350,000   Broadband inventorv mappina
                                          250,000   Sustainable adoption of broadband services
$650,000 Converter
                                          200,000   Upqrade of public computer centers
box b
                                          650,000   TV converter box coupons
Office of Inspector
General

$16,000                                    16,000   Oversiaht
                         Total          7,946,000
                    .,   . .
aS mce subject to $.J02-mlillon reSCISSion .
bSince subject to S240-million rescission.



                                                        4
                                     Attachment B:

       CONGRESSIONAL TESTIMONY, REPORTS, LETTERS, AND

           WORK IN PROGRESS ON THE RECOVERY ACT



Congressional Testimony
•	 Inspector General's testimony on Recovery Act oversight before Subcommittee on
   Investigations and Oversight, House Committee on Science and Technology (March 19,
   2009)

Reports and Letters
•	 Review ofRecovery Act Contracts and Grants Workforce Staffing and Qualifications at the
   Department ofCommerce (September 2010)
•	 Letter to Representative Issa re: federal requirements for Recovery Act signage (July 30,
   2010)
•	 NIST and NOAA Monitor Their Recovery Act Programs, but Performance Metrics Need to
   Measure Outcomes (May 20 I0)
•	 NT/A Must Continue to Improve its Program Management and Pre-Award Process for its
   Broadband Grants Program (April 20 10)
•	 Letter to Senator Pryor re: Recovery Act oversight activities (February 19,2010)
•	 Letter to Senators Mikulski and Shelby re: status ofNTIA Broadband Technology
   Opportunities Program (January 22, 20 10)
•	 More Automated Processing by Commerce Bureaus Would Improve Recovery Act Reporting
   (December 2009)
•	 Improvements Recommendedfor Commerce Pre-Award Guidance and NIST and NOAA
   Processes for Awarding Grants (December 2009)
•	 Commerce Has Implemented Operations to Promote Accurate Recipient Reporting, but
   Improvements Are Needed (October 2009)
•	 Commerce Experience with Past Reliefand Recovery Initiatives Provides Best Praclices and
   Lessons Learned on How to Balance Expediency with Accountability (May 2009)
•	 NT/A Should Apply Lessons Learnedfi'om Public Safety Interoperable Communications
   Program to Ensure Sound Management and Timely Execution 0/$4. 7-Billion Broadband
   Technology Opportunities Program (March 2009)

In-Progress Reviews of Recovery Act Activities
•	 Review of the Effectiveness of NTlA's Monitoring of Broadband Technology Opportunities
   Program Grant Awards
•	 Recovery Act Grant Fraud Prevention and Detection Audit
•	 Review of American Reinvestment and Recovery Act Recipient Reporting Analysis
•	 Review ofNIST's Oversight of ARRA Construction Grants
•	 Review of NTlA's Post-award Processes for Broadband Technology Opportunities Program
•	 Review of201 0 Partnership Program and American Reinvestment and Recovery Act
   Spending



                                             5
